OFFICE OF INSPECTOR GENERAL

AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
MONITORING OF TRAFFICKING
IN PERSONS IN MCC-FUNDED
PROGRAMS

AUDIT REPORT NO. M-000-13-004-P
February 12, 2013




WASHINGTON, D.C.
Office of Inspector General



February 12, 2013

Mr. Patrick Fine, Vice President
Department of Compact Operations
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005-2203

Dear Mr. Fine:

This letter transmits the Office of Inspector General's report on the “Audit of the Millennium
Challenge Corporation’s Monitoring of Trafficking in Persons in MCC-funded Programs.” In
finalizing the report, we considered your written comments on our draft report and included
those comments in their entirety in Appendix II of this report.

The report contains one recommendation to strengthen the Millennium Challenge Corporation's
policies and procedures on detecting and deterring trafficking in persons. We consider that
management decision has been reached on the recommendation. Final action will be reached
when MCC issues written guidance.

We appreciate the cooperation and courtesy extended to our staff during this audit.



                                            Sincerely,
                                                /s/


                                            Richard J. Taylor
                                            Deputy Assistant Inspector General for Audit
                                            Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street NW
Suite 770
Washington, DC 20005
http://oig.usiad.gov
CONTENTS
Summary of Results ......................................................................................................................1

Audit Findings ................................................................................................................................3

     MCC Established and
     Implemented Procedures to
     Detect and Deter Trafficking
     in Persons ..................................................................................................................................3

     MCC Did Not Issue Specific
     Guidance on Trafficking in
     Persons Risk Management
     Plans ..........................................................................................................................................4

Other Matter ...................................................................................................................................5

Evaluation of Management Comments .......................................................................................6

Appendix I—Scope and Methodology.........................................................................................7

Appendix II—Management Comments ........................................................................................9




Abbreviations

The following abbreviations appear in this report:

2WL             Tier 2 Watch List
GAO             Government Accountability Office
MCA             Millennium Challenge Account
MCC             Millennium Challenge Corporation
OIG             Office of Inspector General
SGA             social and gender assessment
TIP             trafficking in persons
SUMMARY OF RESULTS
The Victims of Trafficking and Violence Protection Act (Public Law 106-386) was passed in
2000 to combat trafficking in persons (TIP). The U.S. State Department estimated that about
27 million men, women, and children worldwide are victims to human trafficking, which has been
called the face of modern slavery. The department further stated that the challenge is not just
punishing traffickers and protecting victims, but also putting safeguards in place to ensure the
freedom of future generations.

To further combat TIP, in September 2012 the White House released Executive Order 13627
that strengthened protections against TIP in federal contracting. It stated, “As the largest single
purchaser of goods and services in the world, the United States Government bears a
responsibility to ensure that taxpayer dollars do not contribute to trafficking in persons.”

The objective of this audit was to determine whether the Millennium Challenge Corporation
(MCC) established and implemented procedures to detect and deter TIP in selected compact
countries.

The audit found that MCC issued an interim amendment notice as part of its program
procurement guidelines, effective May 2011,1 that formalized across all Millennium Challenge
Accounts (MCAs) “the procedures to be used in procurements to help ensure that the
contractors, subcontractors and employees of the MCA Entities are not engaged in” TIP. In
January 20122 MCC further revised guidelines that required its environment and social
assessment and gender experts to conduct risk assessments on TIP, including child and forced
labor, on infrastructure projects. It also issued Gender Equality and Poverty Reduction through
Growth in its Principles into Practice document in September 2012 that made the Social and
Gender Assessment (SGA) team responsible for identifying and managing TIP risks associated
with compact projects.

As of October 2, 2012, MCC had not received any reports of TIP allegations linked to MCC
projects. The Office of Inspector General (OIG) did not observe any indications of TIP during a
site visit to MCC-funded infrastructure projects in Mozambique in June 2012. Additionally, the
Investigations Office of the USAID Inspector General and the State Department’s Office to
Monitor and Combat Trafficking in Persons did not receive any allegations of TIP associated
with MCC’s projects.

Although MCC established and implemented procedures to detect and deter TIP in MCC-funded
projects, OIG found the following problem.

    MCC did not issue specific guidance on TIP risk management plans (page 4). The MCAs
    therefore did not have one consistent approach.

To address this concern, the report recommends that MCC’s Vice President, Department of
Compact Operations:


1
  Millennium Challenge Corporation, Interim Amendment Notice 2011-001.
3
    The State Department categorizes countries in four tiers based on how well they comply with the
Victims of Trafficking and Violence Protection Act.

                                                                                                 1
1. Issue in writing specific guidance on when MCAs should require contractors to develop and
   implement TIP risk management plans (page 4).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. Our evaluation of management comments is on page 6, and full text of the
comments appears in Appendix II.




                                                                                          2
AUDIT FINDINGS
MCC Established and
Implemented Procedures
to Detect and Deter
Trafficking in Persons

MCC established and implemented procedures to detect and deter TIP. MCC issued
procurement guidelines in May 2011 that MCAs would use to ensure that contractors,
subcontractors, and MCA employees are not engaged in TIP. MCC developed additional
guidelines in January 2012 that included conducting risk assessments of TIP on infrastructure
projects. MCC also issued the gender Principles into Practice document in September 2012
identifying SGA as being responsible for managing TIP risks on compact projects.

OIG reviewed documents and found that some MCAs and contractors did more than MCC
required to combat TIP.

MCA-Jordan issued TIP plans and impact assessments in 2012, which stated the following:

   Contractors are required to provide quarterly TIP awareness training to employees and
   subcontractors.

   Contractors are required to report to the project engineer annually on their compliance with
   MCC’s zero tolerance standards on TIP.

   Contractors have a duty to advise the contracting officer if employees are violating TIP.

   Commitment to anti-TIP requirements will be one of the selection and evaluation criteria for
   contractors before awarding contracts and bids.

MCA-Moldova’s September 2011 monitoring and evaluation plan included an indicator on the
number of workers the contractor had trained on TIP. Similarly, MCA-Mongolia’s May 2012
monitoring and evaluation plan included an indicator on the number of employees trained on
TIP for a MCC-funded road project.

MCA-Mozambique issued its Anti-human Trafficking Strategy for the Roads Projects Direct Area
of Influence in October 2010. The strategy included mechanisms to prevent TIP on road
projects, like conducting workshops to disseminate information to community leaders regarding
TIP. OIG conducted an audit in Mozambique in calendar year 2012 and during a site visit
verified anti-TIP efforts taken by the MCA. OIG also found language prohibiting TIP in five
infrastructure contracts, totaling about $160 million, that supported the Mozambique compact.
OIG interviewed ten contract employees for a drainage project and found that they were not
aware of any instances of TIP on the project.




                                                                                               3
MCC Did Not Issue Specific
Guidance on Trafficking in
Persons Risk Management
Plans
MCC’s Interim Amendment Notice 2011-001, May 2011, outlines general procurement
procedures to be used to help prevent TIP. In addition, MCC’s draft Social and Gender
Assessment (SGA) Approach to Addressing Trafficking in Persons (TIP) in Compact
Operations, dated August 1, 2011, states, “When there is a specific project-related TIP risk
identified, especially in Tier 2 Watch List countries, 3 SGA staff are responsible for ensuring that
contracts include a requirement for a TIP Risk Management Plan.”

MCAs have taken different approaches toward requiring contractors to develop TIP risk
management plans. In some cases, TIP management plans were required in instances of high
risk, and in other cases, the plans were required regardless of the level of risk. Several
examples are discussed below.

    In March 2012 MCA-Philippines issued its social and gender integration plan, which stated
    that because TIP was high in an area of the road project, contractors were required to
    develop TIP management plans.

    MCA-Mongolia hired a contractor to produce an environmental management plan4 for a
    MCC-funded road project. The plan stated that the road project did not “create any
    additional opportunities for illegal activities, including human trafficking,” and therefore there
    would be no impact on TIP. However, the plan still required the road contractor to create a
    TIP risk management plan.

    MCA-Moldova issued its Guide for Contractors on Combating Trafficking in Persons in 2012,
    stating that all contractors are required to develop a social management plan that included a
    TIP risk management plan.

According to MCC officials, they have been disseminating the draft SGA TIP guidance through
meetings and presentations with MCC and MCA staff. However, because MCC does not have
specific written guidance on when TIP risk management plans should be developed and
implemented, the MCAs are inconsistent in their approaches. Specific written guidance would
create uniformity and help MCC and MCAs better implement and monitor TIP risk management
plans. To address this concern, this audit makes the following recommendation.

       Recommendation 1.          We recommend that the Millennium Challenge
       Corporation’s Vice President of Compact Operations issue in writing specific
       guidance on when Millennium Challenge Accounts should require contractors to
       develop and implement trafficking in persons risk management plans.




3
    The State Department categorizes countries in four tiers based on how well they comply with the
Victims of Trafficking and Violence Protection Act.
4
   North-South Road Project Environmental Impact Assessment (EIA) and Environmental Management
Plan (EMP) for the Bayanzurk h Bridge Activity, March 2, 2011.

                                                                                                    4
Other Matter
OIG followed up on its previous review of “MCC’s Approach to Address and Deter Trafficking in
Persons” (Report No. M-000-12-001-S, December 20, 2011) and found that MCC had designed
controls to help prevent TIP in its projects. OIG recommended that MCC finalize and implement
the fiscal year 2012 communications plans for Liberia, Niger, and Tanzania. During this audit,
OIG found that MCC had acted on that recommendation.

The communication plans provided proposed strategies that MCC would use to address the
countries’ State Department tier rankings. The department’s TIP report ranks countries
according to four tiers: Tier 1, Tier 2, Tier 2 Watch List (2WL), and Tier 3. The best ranking is
Tier 1, and the worst is Tier 3.

   Niger was ranked as 2WL for 2 consecutive years (2010 and 2011) in the June 2011 TIP
   report. MCC’s managing director for Development Cooperation and Policy Improvement
   sent a letter to the U.S. Ambassador to Niger on April 11, 2012, stating, “[C]ountries with
   such unchanged status are at risk of downgrade to Tier 3, which can prompt certain
   restrictions on receiving U.S. foreign assistance.”

   The June 2012 TIP report ranked Niger as 2WL for a third consecutive year. However, the
   report further stated that Niger was granted a waiver to prevent an automatic downgrade to
   Tier 3 because its government “has a written plan that, if implemented, would constitute
   making significant efforts to meet the minimum standards for the elimination of trafficking
   and is devoting sufficient resources to that plan.”

   Tanzania was ranked as 2WL for 2 consecutive years (2010 and 2011) in the State
   Department’s June 2011 TIP report. MCC’s Acting Vice President, Department of Policy
   and Evaluation, sent a letter to Tanzania’s Ministry of Home Affairs on April 11, 2012,
   stating, “[C]ountries with such unchanged status are at risk of automatic downgrade to
   Tier 3” and that should one of MCC’s partners receive a downgrade to Tier 3, they would be
   at risk of not receiving MCC assistance. In the June 2012 TIP report, Tanzania was ranked
   Tier 2.

   Liberia was downgraded from Tier 2 to 2WL in 2011. MCC officials said because Liberia
   was ranked 2WL for the first time that year, they communicated their concerns verbally
   during high-level visits.




                                                                                               5
EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments on the draft report that are included in their entirety in
Appendix II of this report. MCC agreed with the recommendation.

Recommendation 1. MCC agreed to issue written guidance for MCAs on developing TIP risk
management plans. OIG considers that a management decision has been reached on this
recommendation. Final action will occur when MCC issues the guidance.




                                                                                      6
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted the audit of MCC’s approach to establish and implement procedures to detect
and deter TIP in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions in accordance with our audit
objective. We believe that the evidence obtained provides that reasonable basis.

Our objective was to determine whether MCC established and implemented procedures to
detect and deter TIP in selected compact countries. The scope of the audit included analyzing
judgmentally selected infrastructure contracts issued between May 2011 and December 2012.

As part of OIG’s efforts to address TIP, audit teams conducting performance audits in calendar
year 2012 carried out tests to determine whether TIP was occurring in MCC compact countries.
Mozambique was selected because it had infrastructure contracts, which may have the highest
risk of TIP. We analyzed OIG audit teams’ working papers regarding TIP audit tests during
calendar year 2012 and reviewed five contracts, totaling about $160 million, for TIP language
requirements. We also reported on the status of MCC countries that have received
2WL rankings for 2 or more consecutive years. We conducted the audit at MCC headquarters
in Washington, D.C., from September 19 to December 20, 2012.

To answer the audit objective, we met with MCC officials to determine what actions MCC took in
2012 to combat TIP. We also followed up on a recommendation from a previous OIG report 5 on
MCC’s approach to TIP. We analyzed documents created by MCC, MCAs, and contractors to
identify what actions they took to deter and prevent TIP.

We examined the internal control environment by reviewing MCC’s zero tolerance policy on TIP
and guidance issued to MCAs. Specifically, we analyzed documents created by MCAs and
contractors to confirm what actions they had taken to detect and prevent TIP.

Methodology
We interviewed MCC officials in the Department of Compact Operations and Department of
Policy and Evaluation. We also interviewed staff from the State Department’s Office to Monitor
and Combat Trafficking in Persons and contacted the USAID OIG’s Investigations Office. In
addition, we reviewed the State Department’s June 2012 TIP report.

To answer the audit objective, we performed the following:

     Reviewed infrastructure contracts to determine whether TIP provisions were included.

     Reviewed documents to determine whether MCC was taking action against countries that
     did not make significant efforts to comply fully with minimum standards of TIP policy.

5
    “Review of the Millennium Challenge Corporation's Approach to Address and Deter Trafficking in
    Persons” (Report No. M-000-12-001-S, December 20, 2011).

                                                                                                7
                                                                               Appendix I



Reviewed documents to determine whether MCC was taking additional actions to design
controls to help prevent TIP.

Reviewed documents to determine whether selected MCAs and contractors supporting MCC
compacts developed their own actions to combat TIP.

Judgmentally selected a sample of Tier 2 and 2WL countries with infrastructure projects to
determine whether they met MCC’s May 2011 procurement guidance. We reviewed
infrastructure projects because they were high risk in terms of TIP. We selected 2WL
countries because they also were high risk in terms of TIP. We further selected Tier 2
countries because they did not fully comply with Public Law 106-386.




                                                                                        8
                                                                                    Appendix II



MANAGEMENT COMMENTS



DATE:            January 29, 2012

TO:              Richard Taylor
                 Deputy Assistant Inspector General
                 Millennium Challenge Corporation
                 /s/
FROM:            Patrick Fine, Vice President
                 Millennium Challenge Corporation
                 Department of Compact Operations

SUBJECT: MCC’s Official Response to the OIG Draft Report and Notice of Management
Decision for the Audit of the Millennium Challenge Corporation’s Monitoring of Trafficking in
Persons in MCC-Funded Programs, dated January 17, 2013.

This memo serves as MCC’s response to the OIG Draft Report and Notice of Management
Decision for the Audit of the Millennium Challenge Corporation’s Monitoring of Trafficking in
Persons in MCC-Funded Programs.

OIG Recommendation No. 1:

We recommend that the Millennium Challenge Corporation's Vice President of Compact
Operations issue in writing specific guidance on when Millennium Challenge Accounts should
require contractors to develop and implement trafficking in persons risk management plans.

MCC Management Response:

MCC concurs with this recommendation. As communicated to the OIG, the Department of
Compact Operation’s Social and Gender Assessment team is developing written guidance for
MCAs on the development of a Trafficking in Persons Risk Management Plan. MCC expects to
finalize this written guidance by September 30, 2013. This constitutes MCC’s Management
Decision on this recommendation.

If you have any questions or require any additional information, please contact Pat McDonald,
MCC Compliance Officer, at 202-521-7260.


                                                                                                9
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Avenue, NW
           Washington, DC 20523
             Tel: 202-712-1150
             Fax: 202-216-3047
              http://oig.usaid.gov
Office of Illspector
          I"spector Gelleral
                     General



February 12, 2013

Mr. Patrick Fine, Vice President
Department of Compact Operations
Millennium Challenge Corporation
875 15th Street, NW
Washington , DC 20005-2203
Washington,

Dear Mr. Fine:

This letter transmits the Office of Inspector General's report on the "Audit of the Millennium
Challenge Corporation's Monitoring of Trafficking in Persons in MCC-funded Programs." In
finalizing the report, we considered your written comments on our draft report and included
those comments in their entirety in Appendix II of this report.

The report contains one recommendation to strengthen the Millennium Challenge Corporation's
policies and procedures on detecting and deterring trafficking in persons. We consider that
management decision has been reached on the recommendation. Final action will be reached
when MCC issues written guidance.

We appreciate the cooperation and courtesy extended to our staff during this audit.



                                            Sincerely,

                                            /s/

                                            Richard J. Taylor
                                            Deputy Assistant Inspector General for Audit
                                            Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street NW
Suite 770
WaShington,
Washington, DC 20005
http://oig_usiad .gov
http://oig.usiad
